AU99-020 September 1999
Home | Other Reports
Legal Services Corporation
O F F I C E   OF   I N S P E C T O R   G E N E R A L
Review of Case Statistical Reports
Grantee: Philadelphia Legal Assistance Center
Recipient No. 339000
Final Report No. AU99-020
September 1999
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY
RESULTS OF AUDIT
Case Service Reporting
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Use of Automated Case Management System to Prepare Annual Grant Activity Report
Examination of Reported Cases
Closed Cases
Untimely Case Closures
Applicants Rejected for Service
Private Attorney
OPEN CASES
Rejected Cases
Untimely Closure of Cases
Other Problems with Open Case Counts
ADDITIONAL CASE MANAGEMENT ISSUES
Eligibility Determinations
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
APPENDIX I - LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
APPENDIX II - PHILADELPHIA LEGAL ASSISTANCE CENTER'S COMMENTS ON DRAFT AUDIT REPORT
EXECUTIVE SUMMARY
The 1998 Grant Activity Report submitted by Philadelphia Legal Assistance
Center (grantee) overstated the number of cases closed during the year and the
number of cases remaining open at year-end.  The grantee reported 8,885 closed
cases, but our testing indicated that approximately 6,786 cases qualified to be
reported as closed during 1998.  Therefore, the reported closed cases were
overstated by approximately 24 percent.  The 3,069 cases reported as open at
year-end were overstated by an estimated 1,233 cases or 40 percent.
There were three reasons for the closed cases overstatement.  An estimated
1,160 cases were reported as closed in 1998 even though all legal services had
been provided prior to 1998.  These cases should have been closed prior to 1998.
The grantee erroneously reported 1,072 applicants rejected during initial screening
as cases.  These individuals were not accepted as clients and were provided no
legal services.  Approximately 230 Private Attorney Involvement cases were
reported as closed when they were referred to the private attorney.  Such cases
should be closed after the private attorney has completed all legal services.
We estimated that open cases were overstated by approximately 1,233
cases, primarily because the grantee did not promptly close cases in the automated
case management system when the provision of legal services had been
completed.
Grantee management provided us a list of 518 closed cases and 218 open
cases that had been inadvertently omitted from the 1998 Grant Activity Report.
The OIG estimated that 363 of these cases should have been reported by the
grantee as closed cases and 66 as open cases in its 1998 Grant Activity Report.
The estimated overstatements of closed and open cases were adjusted to reflect
these numbers.
Ninety-one of 170 case files reviewed did not contain a signed citizenship
attestation form documenting the client's U.S. citizenship in accordance with the
governing LSC regulation.
Recommendations to correct the above problems are on page 10
BACKGROUND
Philadelphia Legal Assistance Center is a nonprofit Pennsylvania corporation
organized in 1996 to provide legal services to indigent individuals who meet
established eligibility guidelines.  The grantee's main office is located in
Philadelphia.  Its staff includes approximately 14 attorneys, 18 paralegals, and 11
other staff who provide administrative support services.  In 1998, the grantee
received funding totaling about $2.6 million.  Approximately 97 percent, or $2.56
million came from LSC in the form of both a Basic Field and a Migrant Farmworker
grant.  To satisfy its Private Attorney Involvement requirement, Philadelphia Legal
Assistance Center relies on two volunteer law projects to which it provides office
space.
The grantee is required to prepare and submit an annual Grant Activity
Report to LSC on key aspects of its workload.  The report includes statistics for
basic field services, Migrant Farmworker services and Private Attorney Involvement
programs funded with LSC funds, including the number of open and closed cases,
types of cases, and the reasons for closing cases.  For calendar year 1998, the
grantee reported 8,885 closed cases and 3,069 open cases to LSC.
The grantee's annual closed case statistics are its primary workload
indicators and performance measures.  In contrast, the reported open cases are not
a significant measure of a grantee's volume of work or productivity.  Open cases
are simply the cases that have not been closed as of the last day of the reporting
period.  These open cases will eventually be closed and reported in the Grant
Activity Report.  In fact, most will be reported as closed in the following year.
Even though the number of open cases has limited utility as a productivity
indicator, it is important that open cases be accurately reported.  If the open case
count is inaccurate, future reporting of closed cases, in all probability, also will be
inaccurate.  In addition, inaccurate reporting of open cases may indicate
deficiencies in the underlying case management system used to produce the data
for the Grant Activity Report.  These deficiencies could result in less effective
management of legal services delivery.
The grantee tracks client cases primarily through an automated case
management system "Clients for Windows," which is the source of the information
used in the Grant Activity Report.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The Office of Inspector General (OIG) performed the audit fieldwork from
April 5-16, 1999 at the grantee's main office in Philadelphia.  The OIG obtained
and examined the grantee's 1997 and 1998 grant proposals to LSC and its 1997
and 1998 grant activity reports.  The OIG reviewed staff manuals, client intake
systems and practices, case processing and closing procedures, and selected
grantee written policies and procedures.  During the on-site review, the OIG
interviewed and collected information from the grantee's executive director,
managing attorneys, staff attorneys, paralegals, intake staff and other support
staff.
The OIG also obtained and reviewed the data in the grantee's automated
case management system to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.
The OIG generated a random sample of 170 closed and open client cases for
review.  The sample cases were selected from the grantee's case management
systems.  The sample provides 90 percent confidence that the error rate for closed
cases was between 10 and 21 percent.  The most probable error rate for closed
cases was 15 percent.  The sample provides 90 percent confidence that the error
rate for open cases was between 35 and 49 percent.  The most probable error rate
for open cases was 42 percent.  Thirty additional client cases were randomly
selected for review from a population of cases inadvertently not reported by the
recipient in its Grant Activity Report.  Also, 20 additional cases that appeared to be
potential duplicates were reviewed.
The OIG obtained and examined data in the case management system to
determine if the case statistical data reported for the 1998 Private Attorney
Involvement program was consistent with the data reported in the Grant Activity
Report.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
CASE SERVICE REPORTING
The grantee's 1998 Grant Activity Report overstated the number of cases
closed during the year and the number of cases remaining open at year end.  These
overstatements occurred because cases that did not meet reporting criteria were
included in the Grant Activity Report and the errors went undetected.
Case Service Reporting Requirements
LSC requires grantees to submit an annual Grant Activity Report summarizing
the previous year's legal services activity wholly or partially supported with LSC
funds.  The information in the report includes total number of cases worked on,
types of legal issues, number of open and closed cases and the reasons cases were
closed.  The report also includes information on Migrant Farmworker and Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipient's priorities.  Eligibility is based
on income and asset determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporation's
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on open and closed cases is an integral part of
the management oversight process and also allows LSC management to keep its
Board of Directors and the Congress informed of significant program activities and
performance.
Use of Automated Case Management System to Prepare Annual Grant Activity
Report
"Clients for Windows" is a data processing system that allows the grantee to
store, retrieve, and analyze information about client cases and the organization's
delivery of legal services.  It has been in use by the grantee since 1996 to provide
annual case statistical reports to LSC.  The grantee used the case records as the
basis for its Grant Activity Report.
In response to the annual reporting requirement, the grantee submitted the
following information to LSC:
Type of Legal ProblemClosedOpen
Consumer/Finance1507375
Education30
Employment4620
Family3,5241,098
Juvenile115
Health18459
Housing590462
Income Maintenance2,064637
Individual Rights1812
Miscellaneous938401
TOTALS8,8853,069
EXAMINATION OF REPORTED CASES
Closed Cases
The grantee's 1998 Grant Activity Report overstated closed cases by an
estimated 2,099 or 24 percent.  The overstatement occurred primarily because the
grantee: did not promptly close cases after legal services were provided; included
rejected applicants as cases; and reported PAI cases when the cases were referred
to the private attorneys.  The total overstatement was adjusted because the
grantee inadvertently omitted some closed cases from the Grant Activity Report.
The following chart shows the estimated reported overstatement.
CASES
Untimely Case Closure (estimated)1,160
Rejected Applicants1,072
PAI Cases230
Gross Overstatement (estimated)2,462
Less: Unreported Cases (estimated)(363)
Net Overstatement (estimated)2,099
Untimely Case Closure>
An estimated 1,160 cases were incorrectly reported as closed in 1998 as
the result of untimely case closures in the case management system.  Legal
services for these cases had been completed prior to 1998 and the cases should
have been reported in prior years.  We reviewed 85 sample case files and
determined that 13 cases should have been closed before 1998.
Applicants Rejected for Service
The grantee incorrectly reported 1,072 intake screenings of prospective
clients as closed cases.  In these cases, individuals asked for legal assistance from
the grantee, but were not accepted as clients and were provided no legal services.
Grantee intake staff properly coded the intake sheets as "R", indicating that the
applicants' requests for legal assistance had been rejected and the applicants were
coded as rejected in the case management system.  However, the rejected
applicants were counted as cases in the Grant Activity Report.  This occurred
because grantee staff incorrectly extracted data from the case management system
when preparing the Grant Activity Report.
Private Attorney Involvement Cases Improperly Reported
The grantee incorrectly reported approximately 230 PAI cases as closed
when the cases were referred to private attorneys.  The problem occurred because
the grantee closed cases in its database when they were referred to private
attorneys.  The Case Service Report Handbook states that PAI cases should be
closed after the private attorney has completed all legal services.
Unreported Cases
The grantee provided a list of 518 closed cases that had been inadvertently
omitted from the 1998 Grant Activity Report.  We sampled these unreported cases
and estimated that 363 cases should have been reported.  Based on our sample,
we estimated that the remaining cases should not have been reported due to
various errors.  The list included cases that should have been closed prior to 1998,
rejected applicants, and Private Attorney Involvement cases that had been
improperly closed when referred.  We reduced the estimated overstatement of
closed cases by 363 to account for the unreported cases.
Open Cases
The grantee's 1998 Grant Activity Report overstated open cases by an
estimated 1,233 cases or 40 percent.  The overstatement occurred primarily
because many reported open cases should have been closed, i.e., the clients were
no longer being provided legal services.  Additional overstatements occurred
because some non-LSC funded cases were reported and clerical errors were made.
The overstatement was offset to the extent that the grantee failed to report an
estimated 66 open cases.  The following chart shows the estimated overstated
open cases.
CASES
Untimely Case Closure1,155
Ineligible - over income72
Non-LSC Funded36
Unsupported36
Gross Overstatement1,299
Less:  Unreported Cases(66)
Net Overstatement1,233
Untimely Case Closures
An estimated 1,155 cases were incorrectly reported as open at the end of
1998 as a result of untimely case closures in the case management system.  All
legal work on these cases had been completed prior to or during 1998, but the
cases remained open in the case management system.  We reviewed 85 reported
open cases and determined that 32 should have been closed.
Other Overstatements
The untimely closure of cases was the principal cause of overstated open
cases, but our review of sample cases disclosed additional cases that should not
have been reported.  The errors in the sample included two cases for clients whose
income exceeded LSC guidelines, a non-LSC funded case and a case that was not
supported by documentation.  Based on these errors, we estimate that the grantee
incorrectly reported 144 cases as remaining open at the end of 1998.
The overstatement of cases was offset to a limited extent by the grantees
failure to report open cases.  The grantee provided a list of 218 open cases that
had been inadvertently omitted from the 1998 Grant Activity Report.  We reviewed
a sample of these cases and estimated that 66 should have been reported.  We
deducted these cases when estimating the total overstatement of cases.
OTHER CASE MANAGEMENT ISSUES
Additional problems with the case management system surfaced during our
review.  Specifically, some case files did not contain signed citizenship attestation
forms and others lacked the required eligibility documentation.
Signed Citizenship Attestation Forms
Ninety-one of 170 sample case files reviewed did not contain a signed
citizenship attestation form documenting the client's U.S. citizenship.  Some of the
case files contained completed questionnaires or incomplete attestation forms,
which demonstrated that the grantee's staff had made an effort to collect the
required documentation.  During 1998, the grantee implemented a new citizenship
attestation form that should ensure the required documentation is obtained.  In
addition, several advocates whose case files did not contain a properly signed
citizenship attestation form had initiated efforts to contact the clients for the
purpose of executing the form.
Documented Approval of Eligibility
Three of 85 sample closed cases were incorrectly opened for over-income
clients without documenting the required management approval.  Our review of the
case files indicated that the clients met the criteria for management to approve the
acceptance of the applicant as a client.  However, the assigned attorneys did not
document approval prior to accepting the client.  Grantee management needs to
ensure that its internal procedures for documenting management approval of over-
income clients are followed.
SUPERVISORY CONTROLS NEED IMPROVEMENT
Grantee management needs to improve supervisory control procedures over
the case management system and preparation of the Grant Activity Report.  The
single biggest cause of errors in the 1998 report was untimely case closures.  To
correct this problem, supervisors need to periodically review the cases assigned to
staff to ensure that the status of the cases is correctly recorded in the case
management system.  Management needs to review the data supporting the Grant
Activity Report to detect errors such as the reporting of rejected applicants as
cases and the omission of cases from the report.  The implementation of additional
management oversight procedures will help ensure that future Grant Activity
Reports provide an accurate accounting of cases processed during the year.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in
the Grant Activity Report.  Its 1998 report significantly overstated both closed and
open cases.  These problems reflect the absence of adequate supervisory
management controls over the case management system and the preparation of the
Grant Activity Report. Improved controls are needed to ensure the accuracy of
future reports.  In addition, the 1998 Grant Activity Report should be revised in
accordance with Program Letter 99-2 to accurately report cases closed during
1998 and remaining open at year end.
RECOMMENDATIONS
The OIG recommends that grantee management:
Implement procedures to ensure adequate supervisory review over the preparation and accuracy of the Grant Activity Report.
Implement procedures requiring supervisors to review closed cases periodically to ensure that data in the case management system is consistent
with data in case files.
Implement procedures requiring the periodic review of cases recorded as open in the case management database to ensure that these cases are
properly remaining open.
Implement procedures to ensure that cases are appropriately closed in the case management database when the provision of legal services has been
completed.
Implement procedures wherein the Private Attorney Involvement cases opened in the case management database are closed with the proper closing
code in accordance with the Case Service Report Handbook.
Ensure that its internal procedures for documenting approval by management regarding client eligibility are consistently enforced.
Submit to LSC a revised 1998 Grant Activity Report, in accordance with Program Letter 99-2, that accurately reports the number of cases closed
during the year and the number open at year end.
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
Summary of Grantee Comments
The grantee agreed with the report findings on case counting errors and
provided information on how they occurred.  The comments stated that the
inaccuracies resulting from untimely case closures should not be characterized as
overstatements and that over time these errors would balance themselves out.
The grantee did not agree that 94 of 170 sample files lacked signed citizen
attestation forms.  The grantee comments stated that only 28 files lacked the
required form.  According to the comments, 31 files pre-dated the requirement for
citizen attestation contained in 45 C.F.R.1626 (effective May 21,1997) and 29
files contained an attestation form that the grantee developed.  Five files contained
signed citizenship attestations that were part of the clients' Supplemental Security
Income (SSI) applications.  One file contained a signed attestation form.
The comments stated that the report recommendations were either
implemented or would be implemented in the future.  The grantee's comments are
in Appendix II.
OIG Decisions
We reviewed the information provided and our work papers on the cases
lacking citizen attestation forms.  Some cases predate the current regulation on
citizen attestation.  However, the prior regulation in effect when the cases were
accepted also required a signed citizen attestation form.  The grantee correctly
states that some files contained a type of attestation form.  However, these forms
were either not signed by the clients or, if signed, did not meet the requirements of
the regulation.
After reviewing our work papers, we found that two cases included signed
citizenship attestation forms with their respective SSI applications.  The grantee
stated that another case file included a signed citizenship attestation form.  When
we did our review the form was not in the file.  As we reported, some advocates
were contacting clients to have them sign the form and the signed form may have
been put in the file subsequent to completion of our work.  After reviewing the
comments and our work papers, we reduced the number of cases lacking
attestation forms from 94 to 91.  We eliminated two SSI cases and one case that
the grantee stated had the signed form.
The grantee should prepare a corrective action plan for implementing the
recommendations, including dates for corrective action, and submit it to the OIG
within 30 days of the date of this report.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 5)Recommendations #1, 2, 5, and 7
2.Open cases were overstated (page 7)Recommendations #1, 3, and 7
3.Other case management issues (page 8)Recommendation #6
Home | Reports | Top |
Table of Contents
Appendix II -- Grantee Response to Draft Report